No. 20-520

In the Supreme Court of the United States
___________________

AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE,
INC., THE BIG 12 CONFERENCE, INC., CONFERENCE
USA, MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUN BELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
___________________

On Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit
___________________

BRIEF FOR PETITIONERS
___________________

BRITT M. MILLER
ANDREW J. PINCUS
ANDREW S. ROSENMAN
Counsel of Record
JED W. GLICKSTEIN
CHARLES A. ROTHFELD
Mayer Brown LLP
RICHARD J. FAVRETTO
71 South Wacker Dr.
Mayer Brown LLP
Chicago, IL 60606
1999 K Street, NW
(312) 782-0600
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioner The Big Ten Conference, Inc.
[Additional counsel on inside cover]

ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Washington, D.C. 20001 Los Angeles, CA 90067
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

QUESTION PRESENTED
Whether the Sherman Act authorizes a court to
subject the product-defining rules of a joint venture to
full Rule of Reason review, and to hold those rules unlawful if, in the court’s view, they are not the least restrictive means that could have been used to accomplish their procompetitive goal.

ii
PARTIES TO THE PROCEEDINGS
Petitioners, defendants-appellants below, are
American Athletic Conference; Atlantic Coast Conference; The Big Ten Conference, Inc.; The Big 12 Conference, Inc.; Conference USA; Mid-American Conference; Mountain West Conference; Pac-12 Conference;
Southeastern Conference; Sun Belt Conference; and
Western Athletic Conference. The National Collegiate
Athletic Association also was a defendant-appellant
below.
Respondents, plaintiffs-appellees below, are class
representatives Shawne Alston; Don Banks; Duane
Bennett; John Bohannon; Barry Brunetti; India
Chaney; Chris Davenport; Dax Dellenbach; Sharrif
Floyd; Kendall Gregory-McGhee; Justine Hartman;
Nigel Hayes; Ashley Holliday; Dalenta Jameral Stephens; Alec James; Afure Jemerigbe; Martin Jenkins;
Kenyata Johnson; Nicholas Kindler; Alex Lauricella;
Johnathan Moore; Kevin Perry; Anfornee Stewart;
Chris Stone; Kyle Theret; Michel’le Thomas; Kendall
Timmons; and William Tyndall.
CORPORATE DISCLOSURE STATEMENT
A currently accurate corporate disclosure statement is included in the petition for a writ of certiorari.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDINGS........................ ii
CORPORATE DISCLOSURE STATEMENT .......... ii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISION INVOLVED................... 1
STATEMENT ............................................................. 1
A. The NCAA and college athletics ..................... 3
B. Amateurism and the NCAA’s eligibility
rules.................................................................. 5
C. The Ninth Circuit’s prior decision on
NCAA eligibility rules ..................................... 8
D. The district court’s decision ............................ 8
E. The Ninth Circuit’s decision.......................... 11
SUMMARY OF ARGUMENT .................................. 13
ARGUMENT ............................................................ 15
I. The NCAA player-eligibility rules should have
been found lawful on a “quick look.” .................. 18
A. Antitrust policy can be furthered by
resolution of Sherman Act claims on a
“quick look.” ................................................... 18
B. The NCAA player-eligibility rules
challenged here should have been upheld
on a “quick look.” ........................................... 21
1. Joint action is necessary if the collegesports product is to be available. ............. 22

iv
2. This Court concluded in Board of
Regents that the player-eligibility rules
are valid. ................................................... 23
3. Experience with NCAA playereligibility rules confirms that they are
procompetitive. ......................................... 26
4. The player-eligibility rules are
legitimate, core elements of the NCAA’s
product. ..................................................... 29
II. Alternatively, the NCAA rules survive full
Rule of Reason review. ........................................ 33
A. The Ninth Circuit improperly required the
NCAA to prove the absence of a less restrictive alternative at Step 2 of the Rule
of Reason inquiry. .......................................... 34
B. The Ninth Circuit improperly used a “least
restrictive alternative” test at Step 3. .......... 38
1. The Ninth Circuit effectively placed the
burden of proof on defendants at Step 3. 38
2. The Rule of Reason does not require use
of the least restrictive alternative. .......... 39
3. Joint ventures are entitled to draw
reasonable lines in defining their
products. ................................................... 41
4. Defendants prevail in this case under a
proper application of the Rule of
Reason....................................................... 43
III.The Ninth Circuit’s approach undermines the
policies of the antitrust laws. ............................. 44
CONCLUSION ......................................................... 50

v
TABLE OF AUTHORITIES

Page(s)
Cases
American Motor Inns, Inc. v. Holiday
Inns, Inc.,
521 F.2d 1230 (3d Cir. 1975) ......................... 41, 49
American Needle, Inc. v. NFL,
560 U.S. 183 ....................................... 18, 19, 21, 28
Arizona v. Maricopa Cty. Med. Soc’y,
457 U.S. 332 (1982) .............................................. 44
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) .............................................. 19
Broadcast Music, Inc. v. CBS, Inc.,
441 U.S. 1 (1979) ........................................... 28, 29
Bruce Drug, Inc. v. Hollister, Inc.,
688 F.2d 853 (1st Cir. 1984) ................................ 41
California Dental Ass’n v. FTC,
526 U.S. 756 (1999) ...................................... passim
Chicago Prof’l Sports Ltd. P’ship v. Nat’l
Basketball Ass’n,
961 F.2d 667 (7th Cir. 1992) ................................ 49
Chicago Prof’l Sports Ltd. P’ship v.
National Basketball Ass’n,
95 F.3d 593 (7th Cir. 1996) ...................... 23, 32, 45

vi
Continental T.V., Inc. v. GTE Sylvania,
Inc.,
433 U.S. 36 (1977) ................................................ 40
Copperweld Corp. v. Independence Tube
Corp.,
467 U.S. 752 (1984) .............................................. 22
Deppe v. NCAA,
893 F.3d 498 (7th Cir. 2018) .......................... 27, 30
FTC v. Actavis, Inc.,
570 U.S. 136 (2013) .............................................. 33
Law v. NCAA,
134 F.3d 1010 (10th Cir. 1998) ............................ 28
Leegin Creative Leather Products, Inc. v.
PSKS, Inc.,
551 U.S. 877 (2007) ........................................ 18, 29
McCormack v. NCAA,
845 F.2d 1338 (5th Cir. 1988) ........................ 27, 41
Nat’l Football League v. N. Am. Soccer
League,
459 U.S. 1074 (1982) ............................................ 40
National Soc’y of Prof’l Eng’rs v. United
States,
435 U.S. 679 (1978) .............................................. 50
NCAA v. Board of Regents of Univ. of
Okla.,
468 U.S. 85 (1984) ........................................ passim

vii
New York Football Giants, Inc. v. Los
Angeles Chargers Football Club, Inc.,
291 F.2d 471 (5th Cir. 1961) .................................. 5
O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015), ..................... passim
Ohio v. Am. Express Co.,
138 S. Ct. 2274 (2018) ................................ 9, 19, 33
Race Tires Am., Inc. v. Hoosier Racing
Tire Corp.,
614 F.3d 57 (3d Cir. 2010) ....................... 28, 29, 32
Rothery Storage & Van Co. v. Atlas Van
Lines, Inc.,
792 F.2d 210 (D.C. Cir. 1986) ........................ 41, 49
Seminole Tribe of Fla. v. Florida,
517 U.S. 44 (1996) ................................................ 26
Smith v. NCAA,
139 F.3d 180 (3d Cir. 1998), ................................ 27
Standard Oil Co. v. United States,
337 U.S. 293 (1949) .............................................. 37
Texaco Inc. v. Dagher,
547 U.S. 1 (200) .................................. 20, 22, 30, 31
United States v. Arnold, Schwinn & Co.,
388 U.S. 365 (1967) .............................................. 40
United States v. U. S. Gypsum Co.,
438 U.S. 422 (1978) .............................................. 19

viii
Verizon Comm’cs, Inc. v. Law Offices of
Curtis V. Trinko, LLP,
540 U.S. 398 (2004) .................................. 19, 44, 45
Statutes
15 U.S.C. § 1 ...................................................... passim
20 U.S.C. § 1087kk .................................................. 6, 7
28 U.S.C. § 1254(1) ...................................................... 1
Cal. Educ. Code § 67456............................................ 50
Fla. Stat. § 1006.74 ................................................... 50
Other Authorities
Philip Areeda & Herbert Hovenkamp,
Antitrust Law: An Analysis of
Antitrust Principles and Their
Application (4th ed. 2020 cum.
supp.) .............................................................. 35, 40
Frank H. Easterbrook, The Limits of
Antitrust, 63 Tex. L. Rev. 1 (1984) ...................... 32
Frank H. Easterbrook, Ignorance and
Antitrust, in Antitrust, Innovation,
And Competitiveness (Thomas M.
Jorde & David J. Teece eds., 1992) ..................... 48
Gabriel A. Feldman, The Misuse of the
Less Restrictive Alternative Inquiry
in Rule of Reason Analysis, 58 Am.
U. L. Rev. 561 (2009) ........................................... 45

ix
Nathaniel Grow, Regulating
Professional Sports Leagues, 72
Wash. & Lee L. Rev. 573 (2015) .......................... 42
C. Scott Hemphill, Less Restrictive
Alternatives in Antitrust Law, 116
Colum. L. Rev. 927 (2016) ................................... 39
Herbert Hovenkamp, Antitrust
Balancing, 12 N.Y.U. J. L. & Bus.
369 (2016) ....................................................... 27, 44
Proceedings of the First Annual Convention of the Intercollegiate Athletic Ass’n of the United States
(1906) ...................................................................... 5
Gary R. Roberts, in Jeremy Davis, A
Roundtable Discussion for the
Digital Age: Brady v. NFL, Ent. &
Sports Law (Summer 2011) ................................. 42
Gary R. Roberts, The NCAA, Antitrust,
and Consumer Welfare, 70 Tul. L.
Rev. 2631 (1996) ................................................... 48
Rodney K. Smith, A Brief History of the
National Collegiate Athletic
Association’s Role in Regulating
Intercollegiate Athletics, 11 Marq.
Sports L. Rev. 9 (2000)........................................... 5
U.S. Sen. Comm. on Health, Educ.,
Labor & Pensions, Compensating
College Athletes: Examining the
Potential Impact on Athletes and
Institutions (Sept. 15, 2020) ................................ 49

x
What Is The NCAA?,
https://tinyurl.com/y4kpswnl ............................. 3, 4

BRIEF FOR PETITIONERS
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a66a) is reported at 958 F.3d 1239. The relevant opinion of the district court (Pet. App. 103a-206a) is reported at 375 F. Supp. 3d 1058. The district court’s
permanent injunction (Pet. App. 207a-210a) is reported at 2019 WL 1593939.
JURISDICTION
The court of appeals entered judgment on May 18,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISION INVOLVED
Section 1 of the Sherman Act, 15 U.S.C. § 1, provides in relevant part: “Every contract, combination in
the form of trust or otherwise, or conspiracy, in restraint of trade or commerce among the several
States, or with foreign nations, is declared to be illegal.”
STATEMENT
The National Collegiate Athletic Association
(NCAA) sets rules governing college athletics. For
generations, NCAA rules have provided that studentathletes may not be paid to play. Although the precise
manner in which that principle is implemented has
changed over time, the NCAA and its member institutions consistently have regarded the amateurism requirement as central to the unique character of college
sports. This Court has agreed. The Court also has concluded—as has every other court to consider the question, but for the courts below—that the antitrust laws
do not authorize federal judges to re-engineer the

2
NCAA’s amateurism rules. That conclusion follows
from the broader antitrust principle that, when joint
action is necessary for a product to exist at all (as
manifestly is true of college sports), the producers are
entitled to deference in defining their product.
The courts below disagreed. The district court
held that NCAA rules prohibiting colleges from paying student-athletes to play are, in substantial part,
inconsistent with the Sherman Act. The court remedied that supposed violation by formulating its own
definition of amateurism, creating a lengthy list of
payments that schools must be permitted to make to
student-athletes, and retaining jurisdiction to approve proposed future changes in the payment rules—
seemingly in perpetuity. The Ninth Circuit affirmed
that decision, holding that, because the challenged
NCAA rules restricting student-athlete compensation
could have been drawn in a more permissive manner
without eliminating college athletics as a discrete
“product,” the rules must be drawn in that manner.
That holding is wrong; it would turn the Sherman
Act into an engine for the destruction of useful and
procompetitive collaborations throughout the economy. When joint action involving application of a set
of related rules is necessary to create a desirable product, it almost always will be possible for antitrust
plaintiffs to argue that one or another of the rules
could have been tweaked, or that the lines drawn by
the producers could have been moved a bit one way or
the other. If that is enough to state an antitrust claim,
litigation will be endless, fear of liability will stifle innovation, and judges will have ultimate responsibility
for administering procompetitive joint ventures.

3
That is not, and should not be, the law. Here, it
should be obvious on a “quick look” that product-defining NCAA rules, essential to preserve the character
of college sports as they have existed for over a century, are not subject to judicial second-guessing. And
even under full Rule of Reason analysis, the NCAA’s
interconnected player-eligibility rules plainly are procompetitive. This Court should hold those rules to be
consistent with the Sherman Act.
A. The NCAA and college athletics
As this Court has recognized, NCAA college athletics, like sports leagues generally, is an endeavor “in
which horizontal restraints on competition are essential if the product is to be available at all.” NCAA v.
Board of Regents of Univ. of Okla., 468 U.S. 85, 101
(1984). In particular, college sports is maintained as a
discrete form of competition by the NCAA, a nonprofit
educational association whose membership includes
more than one thousand public and private colleges
and universities, and more than 100 nonprofit athletic
conferences and other organizations. See What Is The
NCAA?, https://tinyurl.com/y4kpswnl; Pet. App. 10a.
Formed “in 1905 in response to a public outcry concerning abuses in intercollegiate athletics” (Board of
Regents, 468 U.S. at 121 (White, J., dissenting)), the
NCAA adopted bylaws in 1906 establishing the “Principles of Amateur Sport” and went on to promulgate
“playing rules, standards of amateurism, standards
for academic eligibility, regulations concerning recruitment of athletes, and rules governing the size of
athletic squads and coaching staffs.” Board of Regents,
468 U.S. at 88 (majority opinion).

4
This Court has characterized “[w]hat the NCAA
and its member institutions market * * * [a]s competition itself—contests between competing institutions.” Board of Regents, 468 U.S. at 101. The Court
added that “this would be completely ineffective if
there were no rules on which the competitors agreed
to create and define the competition to be marketed.”
Ibid. Because “the NCAA seeks to market a particular
brand of [sports]—college [sports]”—“[t]he identification of this ‘product’ with an academic tradition differentiates college [sports] from and makes it more popular than professional sports to which it might otherwise be comparable[.]” Id. at 101-102. And, the Court
continued, “[i]n order to preserve the character and
quality of the ‘product,’ athletes must not be paid,
must be required to attend class, and the like.” Id. at
102.
Today, nearly half a million student-athletes participate in NCAA-administered athletics each year,
playing two dozen sports. What Is The NCAA?,
https://tinyurl.com/y4kpswnl. Although certain teams
at some schools generate large revenues, the vast majority of teams are subsidized by their schools. C.A. ER
154, 155 (Trial Tr. (Hatch)); C.A. ER 263-264 (JEX 17:
NCAA Research, Revenues and Expenses, 2004–
2016)). Few schools produce significant revenues from
college sports, and even fewer produce any positive
net revenues. NCAA.org, NCAA Research (2020),
https://tinyurl.com/y3ouozcl. Meanwhile, the schools’
“primary mission” remains “educating [their] students” (C.A. ER 153-154) (Trial Tr. (Hatch)), with intercollegiate athletics offered as “an important part of
the educational experience.” C.A. ER 213 (Trial Tr.
(Blank)). Or, as Justice White put it, the NCAA “‘exist[s] primarily to enhance the contribution made by

5
amateur athletic competition to the process of higher
education.’” Board of Regents, 468 U.S. at 122 (White,
J., dissenting).
B. Amateurism and the NCAA’s eligibility
rules
From its inception, a defining feature of NCAA
sports has been amateurism, the principle that student-athletes are not professionals and “must not be
paid” to play. Board of Regents, 468 U.S. at 102; see
id. at 117 (NCAA rules “are justifiable means of fostering competition among amateur athletic teams”).
This no-pay amateurism principle consistently has
been recognized as central to “preserv[ing] the character and quality of the [college sports] ‘product.’” Id.
at 102.1
In Board of Regents, the Court held that NCAA
limits on football television broadcasts could be challenged under the Sherman Act. 468 U.S. at 113-120.
But the Court also explained in detail that “a certain
degree of cooperation is necessary if the type of competition that [the NCAA] and its member institutions
seek to market is to be preserved.” Id. at 117. The
Court continued:
1 See, e.g., New York Football Giants, Inc. v. Los Angeles
Chargers Football Club, Inc., 291 F.2d 471, 472 n.1 (5th Cir.
1961) (citing “well understood rules” of the NCAA on amateurism); Rodney K. Smith, A Brief History of the National Collegiate
Athletic Association’s Role in Regulating Intercollegiate Athletics,
11 Marq. Sports L. Rev. 9 (2000); PROCEEDINGS OF THE FIRST ANNUAL CONVENTION OF THE INTERCOLLEGIATE ATHLETIC ASS’N OF
THE UNITED STATES (1906) (students shall not be “paid or receive[], directly or indirectly, any money or financial concession”
to “play in, or enter any athletic contest”).

6
It is reasonable to assume that most of the
regulatory controls of the NCAA are justifiable means of fostering competition among amateur athletic teams and therefore procompetitive because they enhance public interest in
intercollegiate athletics. The specific restraints on football telecasts that are challenged in this case do not, however, fit into the
same mold as do rules defining the conditions
of the contest, the eligibility of participants, or
the manner in which members of a joint enterprise shall share the responsibilities and the
benefits of the total venture.
Ibid.
Given this understanding, the NCAA maintains a
body of eligibility rules designed to prohibit studentathletes from being paid for their play, while allowing
schools to reimburse student-athletes for their reasonable and necessary academic and athletic expenses.
See, e.g., C.A. ER 284-287 (JEX 24, NCAA Bylaws),
290-295 (JEX 24, NCAA Bylaws), 1422-1440 (JEX 25,
NCAA Bylaws); see also Pet. App. 11a (quoting NCAA
‘‘‘Amateurism Rule,’ which strips student-athletes of
eligibility for intercollegiate competition if they
‘[u]se[] [their] athletics skill (directly or indirectly) for
pay in any form in [their] sport,’” with “‘[p]ay’’ * * *
defined as the ‘receipt of funds, awards or benefits not
permitted by governing legislation’”).
The principal quantum of education expenses is
“cost of attendance” (COA), a term defined by federal
law that determines the financial assistance students
may receive to attend school. 20 U.S.C. § 1087kk. COA
includes tuition and fees, room and board, books, a
computer, transportation, and other “miscellaneous

7
personal expenses.” Id. § 1087ll. Each school independently determines “the appropriate and reasonable amounts” for its students. C.A. ER 324 (JEX 1517,
Federal Student Aid Handbook).
NCAA rules permit student-athletes to receive financial aid up to COA, and also permit schools to “adjust[]” COA for student-athletes “on an individual basis.” C.A. ER 285 (JEX 24, NCAA Bylaws). Financial
aid may be provided through an athletic scholarship—
called a “grant-in-aid” (GIA)—other financial aid, or
both. C.A. ER 284, 286-287 (same). Student-athletes
may receive other benefits exceeding COA, and
schools may also use specialized funds to cover student-athletes’ additional legitimate expenses. See
C.A. ER 268-269 (JEX 21, 2018 Division I Revenue
Distribution Plan), 284-285, 294-295 (JEX 24, NCAA
Bylaws). And student-athletes who demonstrate exceptional financial need may receive Pell grants from
the federal government. C.A. ER 287.
Finally, NCAA rules allow schools to provide limited awards to recognize special academic or athletic
achievement by individual student-athletes or teams.
See C.A. ER 288-289, 296-297 (JEX 24, NCAA Bylaws). The value limits for these awards, which include trophies and plaques, ranges from $175 for a
team’s most-improved or most-valuable player to
$1,500 for a conference’s athlete (or scholar-athlete) of
the year. C.A. ER 288-289, 296-297 (JEX 24, NCAA
Bylaws). The limits are designed to ensure that
awards do not become vehicles for disguised pay-forplay. C.A. ER 170-171 (Trial Tr. (Lennon)).

8
C. The Ninth Circuit’s prior decision on
NCAA eligibility rules
In O’Bannon v. NCAA, 802 F.3d 1049 (9th Cir.
2015), a class of former NCAA football and men’s basketball players challenged NCAA rules that limit permissible payments to student-athletes for their
names, images, and likenesses (NILs). The O’Bannon
district court—in “the first [decision] by any federal
court to hold that any aspect of the NCAA’s amateurism rules violate[s] the antitrust laws, let alone to
mandate * * * that the NCAA change its practices” (id.
at 1053)—held that the NCAA acted unlawfully by (1)
not permitting schools to award student-athletes full
COA athletic scholarships (the prior rule did not allow
athletic scholarships to include certain living expenses included in COA) and (2) not permitting colleges to make deferred cash payments to student-athletes of up to $5000 per year. See id. at 1060-61.
On appeal, the Ninth Circuit dismissed what it
termed this Court’s “long encomium to amateurism”
rules in Board of Regents as “impressive-sounding”
but “dicta.” 802 F.3d at 1063. The court of appeals
then upheld the O’Bannon district court’s ruling permitting schools to offer COA athletic scholarships (id.
at 1074-76), but set aside the requirement that schools
be permitted to make deferred $5000 annual cash payments to student-athletes. Id. at 1076-79. As the
Ninth Circuit noted in reaching this latter conclusion,
“not paying student-athletes is precisely what makes
them amateurs.” Id. at 1076.
D. The district court’s decision
While O’Bannon was still pending, individuals suing as representatives of several classes of NCAA

9
Football Bowl Subdivision football and Division I basketball players filed this action against petitioners
(eleven collegiate conferences) and the NCAA. Plaintiffs maintained that the NCAA student-athlete payment limits are an anticompetitive restraint of trade
and sought to “dismantle the NCAA’s entire compensation framework.” Pet. App. 17a. The cases were assigned to the same district judge who presided over
O’Bannon.
The district court purported to apply a three-step
Rule of Reason burden-shifting approach in assessing
this claim, under which (1) plaintiffs must establish
that the defendants restrained trade; (2) the burden
then shifts to defendants to show that the restraint
had procompetitive effects; and (3) the burden then
shifts back to plaintiffs to demonstrate that substantially less restrictive alternatives are available that
would be virtually as effective as the challenged restraints at achieving those procompetitive effects. Pet.
App. 115a-166a. See also Ohio v. Am. Express Co., 138
S. Ct. 2274, 2284 (2018) (Amex). Because the court determined at the first step that the challenged NCAA
rules restrain trade (Pet. App. 113a-115a), the focus
at the 10-day trial was on the remaining two elements
of the test.
On these points, the district court first found that,
because the NCAA rules permit schools to offer limited, defined benefits of various sorts to college athletes, the NCAA’s traditional focus on amateurism
and not paying for play is illusory. Pet. App. 180a189a. But the court also determined that the preservation of some distinction between college and professional sports has procompetitive value because it

10
maintains a discrete college-sport product that consumers value. Adopting a definition of amateurism
that had not been proposed by either party, the court
then held that “the distinction between college and
professional sports arises because student-athletes do
not receive unlimited payments unrelated to education, akin to salaries seen in professional sports
leagues.” Id. at 147a-148a. The court therefore regarded as procompetitive only restrictions on such
“unlimited” payments. Id. at 157a.
The court then turned to the Rule of Reason’s
third burden-shifting step, holding that the current
NCAA rules “are more restrictive than necessary to
prevent demand-reducing unlimited compensation indistinguishable from that observed in professional
sports.” Pet. App. 155a. In the court’s view, the NCAA
rules could be modified to achieve this goal by requiring use of an alternative approach that would allow
for larger payments to student-athletes while still adequately preserving college sports as a distinct product. Among other things, the court sought to accomplish its aim by:
(a) Invalidating certain NCAA limits on payments that the court deemed “related to education,”
including those that the NCAA “currently prohibits or
limits in some fashion.” Pet. App. 158a. These include,
among a great many other things, paid post-eligibility
internships. Ibid.
(b) Requiring the NCAA to permit cash payments
to student-athletes in the form of graduation awards
or “academic incentives” with no minimum academic
achievement thresholds. The court allowed the NCAA
to cap such payments at an annual amount not lower
than the “maximum amount of compensation that an

11
individual student-athlete could receive in an academic school year in participation, championship, or
special achievement awards (combined).” Pet. App.
159a. This requires the NCAA to permit schools to pay
all student-athletes in the plaintiff classes annual
cash “academic incentives” in an amount equal to the
largest cash value that any student-athlete theoretically could be paid for winning a combination of athletics participation, championship, and special
achievement awards.2
(c) Allowing individual conferences “to set or
maintain limits on education-related benefits that the
NCAA will not be allowed to cap” and to “set limits on
academic awards and incentives.” Pet. App. 160a.
The court incorporated these limits in a permanent injunction. Pet. App. 209a. In so doing, it provided that its list of permissible compensation and
benefits “related to education” may be amended on the
motion of any party, and that the NCAA may adopt a
definition of benefits “related to education”—but only
with the court’s permission. Id. at 210a.
E. The Ninth Circuit’s decision
The Ninth Circuit affirmed. Pet. App. 1a-66a. Insofar as is relevant here, the court began by stating—
based on language from Board of Regents addressing
the NCAA’s television plan, rather than its amateurism rules—that “the NCAA bears a ‘heavy burden’ of
The district court originally set this figure at $5600. See Pet.
App. 187a. Upon the defendants’ motion for clarification and
plaintiffs’ argument that the amount actually is $15,000, the district court re-set the figure at $5980. Order Granting Motion for
Clarification of Injunction at 5, In re Nat’l Collegiate Athletic
Ass’n Grant-in-Aid Cap Antitrust Litig., No. 14-md-02541 (N.D.
Cal. Dec. 30, 2020), ECF No. 1329.
2

12
‘competitively justify[ing]’ its undisputed ‘deviation
from the operations of a free market.’” Id. at 36a-37a
(quoting Board of Regents, 468 U.S. at 113). From
there, the court of appeals concluded that the district
court correctly conducted a detailed analysis of
whether the NCAA’s eligibility rules have a “demandpreserving effect.” Id. at 38a. And as it had in O’Bannon, the Ninth Circuit dismissed this Court’s “discussion of amateurism [in Board of Regents as] ‘dicta.’”
Id. at 39a-40a.
At the second step of the Rule of Reason test, the
court of appeals accepted the district court’s conclusion “that the NCAA ‘sufficiently show[ed] a procompetitive effect of some aspects of the challenged compensation scheme,’ but not all.” Pet. App. 42a (emphasis omitted). “In short,” the Ninth Circuit concluded,
“NCAA compensation limits preserve demand to the
extent they prevent unlimited cash payments akin to
professional salaries, but not insofar as they restrict
certain education-related benefits.” Id. at 42a-43a.
Turning to the third step of the Rule of Reason inquiry, the Ninth Circuit then stated that “[t]he district
court reasonably concluded that uncapping certain education-related benefits would preserve consumer demand for college athletics just as well as the challenged rules do.” Pet. App. 44a. In the court of appeals’
view, “‘[s]uch benefits are easily distinguishable from
professional salaries, as they are ‘‘connect[ed] to education’; ‘their value is inherently limited to their actual costs’; and ‘they can be provided in kind, not in
cash.’” Ibid.
The court found it crucial that “the NCAA presented no evidence that demand will suffer if schools

13
are free to reimburse education-related expenses of inherently limited value.” Pet. App. 45a. Accordingly,
the Ninth Circuit approved the district court’s rewrite
of the NCAA rules so that, in the appellate court’s
view, the judge-devised standards would allow for
payments that “would preserve consumer demand for
college athletics just as well as the challenged rules
do.” Id. at 44a.
SUMMARY OF ARGUMENT
A. The district court should have upheld the challenged NCAA rules on a “quick look,” without detailed
factual review. This Court has held that not all antitrust suits call for close scrutiny of the record under
the Rule of Reason; when history, logic, and judicial
experience make the proper outcome clear, “a confident conclusion about the principal tendency of a restriction will follow from a quick (or at least quicker)
look.” California Dental Ass’n v. FTC, 526 U.S. 756,
770-71 (1999). Here, a quick look reveals that the challenged rules are procompetitive and therefore lawful,
for several reasons.
First, this Court already has said so. In Board of
Regents, the Court, applying broadly applicable antitrust principles, recognized that the NCAA is a joint
venture whose members must act collaboratively to
offer a product that is valued by consumers. As a matter of simple logic, that college-sports product can exist only if schools agree on limits to student-athlete
compensation. And when, as here, agreement is necessary for creation of a desirable product, a joint venture’s product design is not open to judicial secondguessing.
Second, that conclusion is confirmed by judicial
experience. With the exception of the holdings in this

14
case and O’Bannon, courts uniformly have found the
product-defining rules of the NCAA and other sports
leagues to be procompetitive. Those repeated holdings
offer confidence that these rules are valid.
Third, no special circumstances counsel against
resolution on a quick look here. The NCAA amateurism principle has governed college sports for generations, and has been recognized by courts as central to
the enterprise throughout that time; it cannot be seriously contended that the eligibility rules were created
to disguise an anticompetitive conspiracy. And the
rules challenged here are not ancillary to the NCAA’s
goal; they involve a core element of its jointly created
product. Consequently, this Court should reverse the
judgment below and order dismissal of the action.
B. The claims here also fail full Rule of Reason review. At the second step of the three-stage Rule of
Reason inquiry, defendants carried their burden of
showing that the current set of NCAA eligibility rules
is procompetitive; the district court found that it is
procompetitive to distinguish college from professional sports, as the rules plainly do. That should have
ended the Step 2 inquiry. But the courts below went
further, finding that the rules are procompetitive only
to the extent that they limit certain types of payments
to student-athletes—on the ground that defendants
failed to prove that some additional forms of compensation proposed by the courts could be permitted without undermining the distinction of the NCAA’s product from professional sports. That was wrong; it effectively placed the burden on defendants to show that
they could not have defined their product in a less restrictive manner.

15
And this error led the courts below to reach the
wrong conclusion at Step 3 of the inquiry. Having
found at Step 2 that the defendants failed to show that
NCAA limits preventing certain kinds of additional
payments to student-athletes are procompetitive, it
inevitably followed that the courts also found the existing rules to be more restrictive than necessary.
That conclusion, too, was incorrect. It effectively required the NCAA to use the least restrictive possible
set of payment limits. But this Court and other lower
courts uniformly have rejected such a requirement as
imposing an impossible burden on antitrust defendants.
Instead, the proper inquiry is whether the restrictions defining a jointly produced product fall
within a zone of reasonableness. Because the NCAA’s
rules plainly satisfy that standard, the Court should
order dismissal of this action on that ground as well.
C. By allowing judges to require redesign of a joint
venture’s procompetitive product, the decisions below
run afoul of fundamental antitrust policy. This Court
has made clear that judges are not well-suited to act
as “central planners” who exercise continuing oversight over economic activity—but that is what the
courts did here. The approach of the courts below,
which unilaterally alters a joint venture’s product-defining rules, also means that every product change
can give rise to antitrust liability, inviting never-ending litigation. This Court has cautioned repeatedly
that the antitrust laws should not be read to countenance such a result.
ARGUMENT
Before addressing the intricacies of the Sherman
Act, it is helpful to start with the common sense of the

16
matter. Sports played by amateur college students
who are competing on behalf of their schools and are
not paid to play are different in character—in the language of this Court, such athletics are a different
“product”—than sports played by professional teams.
For more than a century, consumers of college
sports, as well as the NCAA and its member institutions, have regarded those sports as a unique form of
athletic endeavor that is distinct from professional
sports and other sports offerings. This Court and the
lower courts (with the exception of the courts below)
consistently have identified college sports as a “particular brand” of athletic competition that rests on a “tradition of amateurism.” Board of Regents, 468 U.S. at
101, 120. And judges, including Justices of this Court,
have long found it obvious that not paying studentathletes to play is what defines that college-sports
product. Absent limits on such payments, college athletes would become poorly (and, sometimes, not-sopoorly) paid professionals, the “particular brand” of
college sports would lose its distinct character, and
consumers would lose a desired product.
Like sports leagues and other ventures that create
unique products through joint action, the NCAA and
its members must agree on the design of the product.
Because the product here is sports played by bona fide
students who are amateurs, defining the product necessarily means agreeing on the rules that establish eligibility to play. And because the controlling concepts—“student,” “amateur,” “professional,” “pay to
play”—are not self-defining, lines have to be drawn to
establish what conduct is, and is not, permissible.
Fundamentally, the question in this case is who draws
those lines: the joint venturers who design, produce,

17
and market the product; or judges who believe that
they can marginally improve the product design.
The Ninth Circuit gave the wrong answer to that
question. It believed that, notwithstanding this
Court’s contrary conclusion in Board of Regents, the
antitrust laws empowered the district court to rewrite
the rules governing eligibility to play college sports.
But when joint action is necessary to create a product
that demonstrably increases competition and therefore provides real value for consumers, the Sherman
Act does not get in the producers’ way; such collaborations are procompetitive and therefore not only legal,
but encouraged by antitrust policy. That principle requires dismissal of this suit.
The mischief that can be caused by allowing suits
challenging product definition to proceed is evident
here. The decisions below will change the long-standing nature of college sports in destructive and very
significant ways. They require, for example, that student-athletes be permitted to receive paid post-eligibility internships, with no limits on pay. Such internships, uncapped in amount, may now be given by
boosters to athletes attending their favored school—
boosters who understand the effect that a pattern of
such internships will have on recruiting.
Moreover, so long as NCAA rules permit athleticsparticipation awards at the current level, the injunction requires that schools be permitted to make annual “academic achievement” cash payments of almost $6000 to every student athlete in the affected
classes who meets minimum NCAA academic eligibility standards—which is to say, to every student who
is eligible to play. This is, for the first time in the
NCAA’s history, a naked regime of pay-for-play. Given

18
this Court’s prior recognition that, “[i]n order to preserve the character and quality of the ‘product,’ [college] athletes must not be paid” (Board of Regents, 468
U.S. at 102), the preferences of a single judge (upheld
by a Ninth Circuit panel on a highly deferential standard of review) have upended the long-settled and historically sanctioned practices defining college sports.
The courts below should, instead, have rejected the
challenge to the player-eligibility rules.
I. The NCAA player-eligibility rules should have
been found lawful on a “quick look.”
At the outset, the Court’s antitrust precedents delineate the proper analysis here in two respects: they
identify the overarching set of policies that animate
the Sherman Act, along with the analytical tools used
by the Court to effectuate those policies; and they describe the economic and procompetitive value of joint
ventures such as sports leagues that offer a product
requiring agreed-upon action if the product is to exist
at all. In combination, those precedents show that the
claims here should have been, and should now be, rejected on a “quick look.”
A. Antitrust policy can be furthered by resolution of Sherman Act claims on a “quick
look.”
As the Court has often noted, the Sherman Act’s
prohibition of “[e]very” contract or combination in restraint of trade cannot be given literal effect. See, e.g.,
American Needle, Inc. v. NFL, 560 U.S. 183, 189
(2010); Leegin Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877, 885 (2007). The goal of a
court applying the Act is instead to “distinguis[h] between restraints with anticompetitive effect that are
harmful to the consumer and restraints stimulating

19
competition that are in the consumer’s best interest.”
Amex, 138 S. Ct. at 2284.
In applying these principles, preserving vigorous
competition is of course a key consideration. See, e.g.,
American Needle, 560 U.S. at 195-96. But the Court
also has emphasized the importance of avoiding the
suppression of joint action that makes desirable products more widely available, has a net procompetitive
effect, and therefore benefits consumers. Uncertain
standards may lead to unwarranted findings of liability, which directly preclude (and wrongly impose liability for engaging in) beneficial joint conduct. And
less directly, antitrust litigation is famously expensive
and burdensome. See, e.g., Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 558-59 (2007). Fear of both
wrongful determinations of liability and costly strikesuit litigation therefore will discourage useful, procompetitive behavior.3 Consequently, use of analytical
tools that distinguish between meritorious and unwarranted antitrust lawsuits—reliably, quickly, and
efficiently—is critically important in avoiding destructive litigation.
In the usual case courts will resolve an antitrust
suit through application of the Rule of Reason, which
typically involves development of a full record on
“which antitrust plaintiffs must demonstrate that a

See, e.g., Verizon Comm’cs, Inc. v. Law Offices of Curtis V.
Trinko, LLP, 540 U.S. 398, 414 (2004) (warning against “mistaken inferences” and “false condemnations” in antitrust);
United States v. U. S. Gypsum Co., 438 U.S. 422, 441 (1978)
(“[P]rocompetitive conduct lying close to the borderline of impermissible conduct might be shunned by businessmen who chose to
be excessively cautious in the face of uncertainty regarding possible exposure to criminal punishment.”).
3

20
particular contract or combination is in fact unreasonable and anticompetitive before it will be found unlawful.” Texaco Inc. v. Dagher, 547 U.S. 1, 5 (2006). But
the Court also has approved various abbreviated
methods for application of the Sherman Act, in circumstances where experience and economic logic give
a court confidence that a claim of liability can be resolved—one way or the other—without detailed factual inquiry.
Thus, the Court has held that “naked” horizontal
price-fixing agreements between firms that have no
business relationship other than as competitors usually are per se illegal because those “circumstances
make the likelihood of anticompetitive conduct so
great as to render unjustified further examination of
the challenged conduct.” Board of Regents, 468 U.S. at
103-104. Other forms of horizontal conduct are subject
to the Rule of Reason in theory but can be found illegal
on a limited “quick look” because, “[e]ven without a
trial,” “one can hardly imagine a pro-competitive justification actually probable in fact or strong enough in
principle to make this particular joint selling arrangement reasonable.” Id. at 109 n.39 (citation and internal quotation marks omitted). See California Dental
Ass’n v. FTC, 526 U.S. 756, 770-71 (1999).
And the Court has indicated that other combinations may be found legal on such a quick look:
“[D]epending upon the concerted activity in question,
the Rule of Reason may not require a detailed analysis; it can sometimes be applied in the twinkling of an
eye.” American Needle, 560 U.S. at 203 (quoting Board
of Regents, 468 U.S. at 110 n.39). Consistent with
Board of Regents, American Needle reaffirmed that
courts should, as a matter of experience and economic

21
logic, afford deference to restraints reasonably related
to the design of a sports league’s or other joint venture’s unique product. Such restraints should be upheld as procompetitive without further development
of a factual record or trial.
In all, “the quality of proof required should vary
with the circumstances.” California Dental, 526 U.S.
at 780 (citation and internal quotation marks omitted). “But whether the ultimate finding is the product
of a presumption or actual market analysis, the essential inquiry remains the same—whether or not the
challenged restraint enhances competition.” Board of
Regents, 468 U.S. at 104.
B. The NCAA player-eligibility rules challenged here should have been upheld on a
“quick look.”
Against this background, the NCAA rules at issue
here should have been subjected to a “quick look” by
the district court and, upon that look, upheld in the
“twinkling of an eye.” Of course, not everything done
by a sports league should escape full Rule of Reason
review. Some rules, although ancillary to the agreement defining the league’s product, are not central to
its operation; an example is the NCAA broadcast limit
at issue in Board of Regents itself. But in the context
of an entity like a sports league, joint action that defines a desirable product and is necessary for that
product to exist is presumptively procompetitive and
therefore lawful absent extraordinary circumstances—which are not present in this case.
In determining the level of scrutiny that should be
given a challenged restraint, “[w]hat is required * * *
is an enquiry meet for the case, looking to the circumstances, details, and logic of a restraint. The logic is to

22
see whether the experience of the market has been so
clear, or necessarily will be, that a confident conclusion about the principal tendency of a restriction will
follow from a quick (or at least quicker) look, in place
of a more sedulous one.” California Dental, 526 U.S.
at 781. For several reasons, “an observer with even a
rudimentary understanding of economics” (id. at 770)
should conclude that—given their “the circumstances,
details, and logic”—the NCAA’s player-eligibility
rules are procompetitive.
1. Joint action is necessary if the collegesports product is to be available.
To begin with, the defendants in this litigation
participate in a joint venture. See generally Dagher,
547 U.S. at 6-7. Although joint ventures often are
deemed procompetitive simply because they offer efficiencies and cost savings to the participants (see, e.g.,
Copperweld Corp. v. Independence Tube Corp., 467
U.S. 752, 768 (1984)), the joint action at issue here has
a much more fundamental value: it actually defines
the venture’s product. Indeed, this case “involves an
industry in which horizontal restraints on competition
are essential if the product is to be available at all.”
Board of Regents, 468 U.S. at 101. As the Court recognized in Board of Regents, quoting an oft-repeated observation of Judge Bork, “league sports” is “[p]erhaps
the leading example” of “activities [that] can only be
carried out jointly.” Ibid. (quoting Robert Bork, The
Antitrust Paradox 278 (1978)). Put more colorfully: “a
league with one team would be like one hand clapping.” Chicago Prof’l Sports Ltd. P’ship v. National
Basketball Ass’n, 95 F.3d 593, 598-599 (7th Cir. 1996)
(Easterbrook, J.).

23
In fact, collaboration by the NCAA’s member institutions is necessary regarding two related types of
rules that are indispensable for the creation of the
unique college-sports product. One set concerns the
rules of play. As noted at the outset, “[a] myriad of
rules affecting such matters as the size of the field, the
number of players on a team, and the extent to which
physical violence is to be encouraged or proscribed, all
must be agreed upon, and all restrain the manner in
which institutions compete.” Board of Regents, 468
U.S. at 101. This sort of agreement unquestionably is
essential to the existence of any sports league, and
surely is both noncontroversial and not subject to
challenge under the Sherman Act.
And as the Court also made clear in Board of Regents, insofar as the NCAA is concerned, agreement is
necessary not only as to the rules governing play on
the field, but also as to who may play and—an inextricably related consideration—what benefits they may
receive to play: “[T]he NCAA seeks to market a particular brand of [sports]—college [sports]. * * * In order
to preserve the character and quality of the ‘product,’
athletes must not be paid to play, must be required to
attend class, and the like.” 468 U.S. at 101-102.
2. This Court concluded in Board of Regents that the player-eligibility rules
are valid.
Largely for that reason, this Court already has
held that the NCAA player-eligibility rules are procompetitive. As just noted, the Court recognized in
Board of Regents that the “particular brand” of athletics marketed by the NCAA is “college” sports, and that
“to preserve the character and quality of the ‘product,’
athletes must not be paid, must be required to attend

24
class, and the like. And the character of the ‘product’
cannot be preserved except by mutual agreement[.]”
468 U.S. at 102. The Court then expressly contrasted
those rules with the “specific restraints on football telecasts that [were] challenged in” Board of Regents,
noting that the broadcast limits “do not * * * fit into
the same mold as do rules defining the conditions of
the contest, the eligibility of participants, or the manner in which members of a joint enterprise shall share
the responsibilities and the benefits of the total venture.” Id. at 117. Although using different terminology, the Court then endorsed approval of these eligibility rules on what we today would characterize as a
“quick look” by adding: “It is reasonable to assume
that most of the regulatory controls of the NCAA are
justifiable means of fostering competition among amateur athletic teams and therefore procompetitive because they enhance public interest in intercollegiate
athletics.” Ibid.
The Court went even further, reiterating at several points its commonsense conclusion that jointly
adopted rules mandating the amateurism of college
athletes are presumptively procompetitive. It emphasized that “the NCAA plays a vital role in enabling
college football to preserve its character, and as a result enables a product to be marketed which might
otherwise be unavailable. In performing this role, its
actions widen consumer choice * * * and hence can be
viewed as procompetitive.” 468 U.S. at 102. The Court
later repeated a nearly identical formulation, explaining:
The NCAA plays a critical role in the maintenance of a revered tradition of amateurism in
college sports. There can be no question but
that it needs ample latitude to play that role,

25
or that the preservation of the student-athlete
in higher education adds richness and diversity to intercollegiate athletics and is entirely
consistent with the goals of the Sherman Act.
Id. at 120. See ibid. (“consistent with the Sherman
Act, the role of the NCAA must be to preserve a tradition that might otherwise die”).
And on this point, the Court was unanimous. In
dissent, Justice White and then-Justice Rehnquist
had no doubt about the validity of the body of NCAA
amateurism rules. See 468 U.S. at 122 (White, J., dissenting) (“the NCAA ensures the continued availability of a unique and valuable product, the very existence of which might well be threatened by unbridled
competition in the economic sphere”). Indeed, they
noted that no one even “question[ed] the validity of
these [eligibility and other amateurism rules] under
the Rule of Reason.” Id. at 123.
In this case, the Ninth Circuit acknowledged that
Board of Regents “define[d] amateurism to exclude
payment for athletic performance.” Pet. App. 39a-40a.
But the court of appeals opined that Board of Regents
does not “purport[] to immortalize that definition as a
matter of law,” and dismissed Board of Regents’ “discussion of amateurism [as] ‘dicta.’” Id. at 40a. In fact,
this Court’s treatment of amateurism was a key element of its explanation why NCAA rules on television
broadcasts were open to challenge, and therefore was
not dicta. The Court’s holding that the broadcast limits were invalid rested in part on its repeated contrast
of those limits with the player-eligibility rules, as well
as on its explanation that the broadcast restrictions
were not related to the preservation of amateurism.
And “[w]hen an opinion issues for the Court, it is not

26
only the result but also those portions of the opinion
necessary to that result by which [the Court is]
bound.” Seminole Tribe of Fla. v. Florida, 517 U.S. 44,
66-67 (1996).
In any event, the Board of Regents amateurism
discussion was lengthy and well-considered. And
Board of Regents did not state a special rule for the
NCAA; it applied broad and generally applicable
standards of antitrust law, recognizing the particular
status of joint ventures that collaborate not simply to
obtain efficiencies of scale, but to produce a desirable
product that would not otherwise exist. The principles
articulated in Board of Regents therefore should be
followed not only because the Court articulated them
(itself a good enough reason), but because they are correct, as a reflection of consistently applied antitrust
doctrine.
3. Experience with NCAA player-eligibility rules confirms that they are procompetitive.
Decades of judicial experience and judgment confirm that quick-look analysis is appropriate in this
case. In the years after Board of Regents, federal
courts consistently rejected antitrust challenges to
NCAA rules limiting student-athlete compensation.
Consistent with Board of Regents, these courts did
more than find such challenges meritless on review of
the record; they recognized that the case against liability was so strong that full Rule of Reason scrutiny
was unnecessary. In short, until the Ninth Circuit’s
decision in O’Bannon, “the line between ‘amateur’ and
‘professional’ athletics was a well-established benchmark that courts had repeatedly approved.” Herbert

27
Hovenkamp, Antitrust Balancing, 12 N.Y.U. J. L. &
Bus. 369, 377 (2016).
For example, in Deppe v. NCAA, 893 F.3d 498 (7th
Cir. 2018), the Seventh Circuit upheld the NCAA’s
year-in-residence eligibility rule. The court declared
that “an NCAA bylaw is presumptively procompetitive when it is clearly meant to help maintain the
revered tradition of amateurism in college sports or
the preservation of the student-athlete in higher education.” Id. at 501 (citations and internal quotation
marks omitted). Accordingly, “most NCAA eligibility
rules are entitled to the procompetitive presumption
announced in Board of Regents because they define
what it means to be a student-athlete and thus preserve the tradition and amateur character of college
athletics.” Id. at 502. The court therefore affirmed dismissal of the suit on the pleadings, with no specific
evidentiary showing that the year-in-residence rule
was necessary to preserve consumer interest in college sports—that is, on a quick look.
Other courts have reached the same conclusion. In
Smith v. NCAA, 139 F.3d 180, 186-187 (3d Cir. 1998),
vacated on other grounds, 525 U.S. 459, 464 n.2
(1999), the Third Circuit found it unnecessary to consider specific evidence supporting the procompetitive
value of NCAA limits on post-graduate eligibility; instead, it presumed that “the bylaw at issue here is a
reasonable restraint which furthers the NCAA’s goal
of fair competition and the survival of intercollegiate
athletics and is thus procompetitive.” Id. at 187. And
in McCormack v. NCAA, 845 F.2d 1338 (5th Cir.
1988), the court upheld penalties that the NCAA imposed on Southern Methodist University for exceeding
compensation limits, finding: “That the NCAA has not

28
distilled amateurism to its purest form does not mean
its attempts to maintain a mixture containing some
amateur elements are unreasonable. We therefore
conclude that the plaintiffs cannot prove any set of
facts that would carry their antitrust claim and that
the motion to dismiss was properly granted.” Id. at
1345. See also Law v. NCAA, 134 F.3d 1010, 1021,
1022 n.14 (10th Cir. 1998) (NCAA rules defining “the
eligibility of participants[] are justifiable under the
antitrust laws because they are necessary to create
the product of competitive college sports”).
Moreover, courts addressing challenges to sportsleague rules outside the college setting also “have generally accorded sports organizations a certain degree
of deference and freedom to act in similar circumstances,” so long as the organization “offers” a “justification” for its rules that is not “in bad faith or * * *
otherwise nonsensical.” Race Tires Am., Inc. v. Hoosier Racing Tire Corp., 614 F.3d 57, 80, 81 (3d Cir.
2010). These courts have recognized that such entities
“deserve a bright-line rule to follow so they can avoid
potential antitrust liability as well as time-consuming
and expensive antitrust litigation,” and that, “[c]ontrary to the pro-competitive purposes of antitrust law,
this [liability and litigation] expense may have a very
real anti-competitive effect.” Id. at 80. “[S]ports-related organizations should have the right to determine for themselves the * * * rules that they believe
best advance their respective sport * * *, without undue and costly interference on the part of courts and
juries.” Id. at 83. See also American Needle, 560 U.S.
at 203 (addressing NFL, when restraints are necessary to make the product available, “the agreement is
likely to survive the Rule of Reason”); cf. Broadcast
Music, Inc. v. CBS, Inc. (“BMI”), 441 U.S. 1, 23 (1979)

29
23 (“Joint ventures and other cooperative arrangements are not usually unlawful * * * where the agreement * * * is necessary to market the product at all.”).
Against this consistent body of authority, the
Ninth Circuit’s contrary conclusion is a striking outlier. Prior to the decisions below and the related decisions by the Ninth Circuit and district court in O’Bannon, no court ever had held that “any aspect of the
NCAA’s amateurism rules violate the antitrust laws,
let alone * * * mandate[d] * * * that the NCAA change
its practices.” O’Bannon, 802 F.3d at 1053. Nor, so far
as we are aware, has any federal or state antitrust enforcement agency ever has initiated a proceeding to
challenge those rules.
This history is highly suggestive. “[C]onsiderable
experience with the type of restraint at issue” may
make departure from full Rule of Reason analysis appropriate. Leegin, 551 U.S. at 886. See BMI, 441 U.S.
at 9. Courts have that experience regarding NCAA eligibility rules, as to which “analyses in case after case
reach identical conclusions.” California Dental, 526
U.S. at 781. In these circumstances, the district court
should have reached a “confident conclusion” about
the validity of those rules “from a quick (or at least
quicker) look.” Ibid.
4. The player-eligibility rules are legitimate, core elements of the NCAA’s product.
Nor are there any special circumstances here that
make a quick look inappropriate. The NCAA eligibility rules are the means by which a joint venture defines a product that requires adherence to agreedupon standards if that product is to exist; absent good
reason to treat the restrictions challenged in this case

30
as the “rare exception to th[e] general principle” that
NCAA eligibility rules are valid attempts to separate
college from professional sports (Deppe, 893 F.3d at
502), that should be the end of the inquiry.
a. As in Deppe, the challenged rules “define what
it means to be a student-athlete and thus preserve the
tradition and amateur character of college athletics.”
893 F.3d at 502. Whatever one thinks of the NCAA
and its collegiate model as a matter of policy, it could
hardly be suggested that the amateurism principle
was implemented to disguise an anticompetitive conspiracy. Cf. Dagher, 547 U.S. at 6 n.1. Although the
NCAA has adjusted the no-pay-for-play rules at the
edges over time, amateurism has been the central element of college sports for generations. See pages 5-6,
supra. This Court has declared its “respect for the
NCAA’s historic role in the preservation and encouragement of intercollegiate amateur athletics” (Board
of Regents, 468 U.S. at 101); recognized that “the
NCAA plays a vital role in enabling college football to
preserve its character” (id. at 102); and acknowledged
that “[t]he NCAA plays a critical role in the maintenance of a revered tradition of amateurism in college
sports” that “is entirely consistent with the goals of
the Sherman Act.” Id. at 120.
The Court thus found it obvious that college sports
characterized by amateurism is a real and discrete
product, defined by essential joint action. And it is evident that consumers agree: “Whether measured by
consumer demand or any other metric, [amateur college athletic competition] is one of the most successful
products in the history of our economy.” Amici Antitrust Economists (supporting certiorari) Br. 4. This all

31
offers confidence that college sports defined by amateurism is a legitimate product—and that the agreement necessary to offer that product survives a Sherman Act quick look.
b. Moreover, in contrast to cases involving challenges to sports-league activities that are ancillary to
the joint venture’s animating agreement, like the
Board of Regents challenge to the NCAA broadcast
limits, here “the business practices being challenged
involve the core activity of the joint venture itself.”
Dagher, 547 U.S. at 7. The NCAA rules at issue in this
case are not peripheral to preservation of the no-payfor-play model; the courts below acknowledged that
the challenge here is directed at “dismantl[ing] the
NCAA’s entire compensation framework” (Pet. App.
17a) and “targets the ‘interconnected set of NCAA
rules that limit the compensation [student-athletes]
may receive in exchange for their athletic services.”
Id. at 31a-32a (citation omitted).
To be sure, plaintiffs argue and the courts below
held that the NCAA could achieve its procompetitive
goals in less restrictive ways. We explain below why
full Rule of Reason review does not support that conclusion. But before reaching that point, such an argument simply is not well-taken on a quick look. As defined by the joint venture, the product here is college
sports, played by bona fide students who are not paid
to play. Jointly adopted, product-defining rules are essential for the availability of that product. And to survive a quick look, it is enough that the aggregate set
of rules could reasonably be thought to provide for the
creation of the product.
For a court to go further and modify the aggregated set of rules would allow judges to redesign the

32
joint venture’s product. But antitrust law permits a
joint venture to design its own products, and “[t]o say
that participants in an organization may cooperate is
to say that they may control what they make and how
to sell it.” Chicago Prof’l Sports Ltd. P’ship, 95 F.3d at
598. Especially where mutually dependent joint ventures like sports leagues are concerned, there is a compelling need for certainty and predictability in the
governing rules. See generally Frank Easterbrook,
The Limits of Antitrust, 63 Tex. L. Rev. 1, 4-9, 12-13
(1984). That principle is best effectuated by dismissal
of the suit here on a quick look.
c. For all of these reasons, the district court should
have dismissed this suit without detailed factual review. The case involves a challenge to a product produced in circumstances where joint action is necessary; there is a long history of judicial recognition in
these very circumstances that the challenged action is
procompetitive; this Court has reached that conclusion; and no special circumstances suggest caution.
Moreover, after wrongly refusing to dismiss the
case on a quick look and instead holding a trial, the
courts below did find that there is a real distinction
between college and professional sports, and that
drawing this distinction has competitive value. That
finding shows that the NCAA rules are not advanced
“in bad faith or * * * otherwise nonsensical” (Race
Tires America, 614 F.3d at 81), which—even if a
“quicker look” is thought to allow for some factual review—confirms that the case lacks merit. This Court
therefore should reverse the judgment below and order dismissal of the action.

33
II. Alternatively, the NCAA rules survive full
Rule of Reason review.

If the Court agrees that plaintiffs’ challenge fails
on a quick look, the case is at an end. But even if it
were appropriate to subject the NCAA’s amateurism
rules to full-blown review under the Rule of Reason,
the Ninth Circuit erred in holding that those rules fail
the governing test.
The “basic question” under the Rule of Reason is
whether a restraint has “significant unjustified anticompetitive consequences.” FTC v. Actavis, Inc., 570
U.S. 136, 160 (2013). As the Court has indicated, that
inquiry appropriately makes use of a “three-step, burden-shifting” framework. Amex, 138 S. Ct. at 2284.
Under this approach, the plaintiff bears the initial
burden of proving that the challenged restraint has
substantial anticompetitive effects in a relevant market. If the plaintiff makes this showing, the burden
shifts to the defendant, who must offer a procompetitive rationale for the restraint. Finally, the burden
shifts back to the plaintiff, who must show that the
restraint’s procompetitive objectives “could be reasonably achieved through less anticompetitive means.”
Ibid.
Before the Ninth Circuit, the parties focused on
the second and third steps of the inquiry. See Pet.
App. 36a. At the second step, although the Ninth Circuit begrudgingly acknowledged that the NCAA’s payfor-play rules have a procompetitive effect by distinguishing college from professional sports, it did so
only after holding that the defendants had to show
that each aspect of the NCAA’s amateurism rules furthered the court’s own “conception” of college sports—
one it declared to be “much narrower” than the

34
NCAA’s. Id. at 40a. The court of appeals then approved the district court’s rewrite of pay-for-play restrictions at Step 3 of the inquiry to reflect that novel
conception of amateurism.
That approach to the Rule of Reason was wrong.
The courts below conducted at Step 2 of the test the
inquiry that they should have made at Step 3, effectively placing the burden on defendants to show that
they could not have achieved their procompetitive
ends through less restrictive means—rather than on
plaintiffs to show that defendants could have achieved
their procompetitive ends through less restrictive
means. That misunderstanding effectively forced defendants to demonstrate that their product design
uses the least restrictive alternative, a standard that
usually will be impossible to meet. And it results in
judges acting as product designers and central planners—as happened in this case. Had the courts below
applied the Rule of Reason standard properly, they
would have held that the NCAA’s amateurism rules
are reasonable and therefore lawful. Judgment for defendants is warranted.
A. The Ninth Circuit improperly required the
NCAA to prove the absence of a less restrictive alternative at Step 2 of the Rule of
Reason inquiry.
Both courts below opined that plaintiffs carried
their burden at Step 1 of the Rule of Reason test by
demonstrating that the NCAA’s rules limit studentathlete compensation. They concluded that the
NCAA’s rules in the aggregate—i.e., “the current, interconnected set of NCAA rules that limit the compensation [student-athletes] may receive in exchange for

35
their athletic services” (Pet. App. 103a)—have a substantial anticompetitive effect. Id. at 115a-121a; see
also id. at 36a. That approach of reviewing rules in the
aggregate was correct: “the content of the restraint is
the sum total of everything that the parties have
‘agreed’ about and that is alleged to injure competition.” Philip Areeda & Herbert Hovenkamp, Antitrust
Law: An Analysis of Antitrust Principles and Their
Application ¶ 1504d (4th ed. 2020 cum. supp.).
At Step 2 of the Rule of Reason test, however, the
lower courts’ mode of analysis hopped the track. At
that stage, as at Step 1, the courts should have looked
at the body of NCAA eligibility rules, asking whether
it is procompetitive because it provides a product that
is valued by consumers and that would not otherwise
exist. If conducted properly, that would have been a
very short inquiry. It is apparent from history and this
Court’s analysis in Board of Regents that rules distinguishing amateur from professional sports are procompetitive. And insofar as additional evidentiary
support for that proposition is necessary, the district
court expressly found as much on the record here, determining that the challenged rules draw such a distinction. Pet. App. 147a-148a. The Step 2 inquiry
therefore should have ended there, and the district
court should have proceeded to Step 3, where plaintiffs would have had the burden to prove that defendants could have achieved their procompetitive objectives through less restrictive means.
But that is not what the district court did. Instead, at Step 2 it opined that the NCAA did not adequately define amateurism (Pet. App. 121a-124a); reviewed the various kinds of payments students may
receive under the existing NCAA rules (id. at 124a-

36
130a); looked at evidence it thought showed that more
of various kinds of payments could be made without
suppressing consumer demand for college sports (id.
at 130a-145a); and then found that limits on payments to students are effective in preserving demand—but only up to a point, and treating defendants’ Step 2 showing as adequate only up to that
point. See id. at 146a-148a,; see also id. at 37a-43a.
In the course of this analysis, the district court,
almost in so many words, identified and adopted a definition of amateurism that supposedly is a less restrictive alternative to the NCAA’s actual definition, concluding that student-athletes are adequately distinguished from professionals so long as they “do not receive unlimited payments unrelated to education,
akin to salaries seen in professional sports leagues.”
Pet. App. 147a-148a. That definition, which allows
significant payments to students for playing, is not an
approach that ever has been taken by the NCAA and
finds no support in the record. Yet the district court
ruled, at Step 2, that the NCAA’s eligibility rules were
procompetitive only to the extent that they furthered
this alternative definition.
The Ninth Circuit, evidently recognizing that the
district court’s formulation is insupportable on the
record, subsequently opined that the district court really meant to find amateurism rules procompetitive
insofar as they prevent unlimited “cash payments, unrelated to education and akin to professional salaries.”
Id. 43a n.16. But this definition, too, is not one that
describes the college-sports product offered by the
NCAA and its members, which is embodied by the entirety of the NCAA eligibility rules. Even so, having

37
opined that this alternative definition is the real “dividing line between student-athletes and professionals” (id.), the Ninth Circuit then approved the district
court’s judgment that “only some of the challenged
[NCAA] rules serve that procompetitive purpose,”
adding that “the remaining rules” “do nothing to foster or preserve demand.” Id. at 43a. See id. at 42a
(“district court properly considered whether the challenged rules themselves * * * have procompetitive
benefits”); id. at 38a (“The district court concluded
* * * that only some of the challenged rules serve that
procompetitive purpose”).4
Because defendants had the burden of proof at
Step 2, the effect of the lower courts’ approach was to
impose upon them the insuperable burden of having
to prove a negative: the absence of a less restrictive
alternative. See generally Standard Oil Co. v. United
States, 337 U.S. 293, 309–10 (1949) (requiring such a
counter-factual demonstration “would be a standard
of proof if not virtually impossible to meet, at least
most ill-suited for ascertainment by courts”). But that
approach is wrong. Here, having found that the product currently offered by defendants is procompetitive—a product defined by the whole set of NCAA
player-eligibility rules—the courts below should have
ended their Step 2 inquiry, without determining

The Ninth Circuit’s reasoning rested in part on the court’s derisive mischaracterization of the NCAA’s concept of amateurism
as allowing “Not One Penny” over COA. Pet. App. 40a. In fact,
the defendants’ longstanding conception of amateurism permits
schools to cover all legitimate educational expenses and allows
student-athletes to receive modest recognition awards, even if
those expenses and awards exceed COA.
4

38
whether defendants could have defined that product
in a less restrictive manner.
B. The Ninth Circuit improperly used a “least
restrictive alternative” test at Step 3.
The Ninth Circuit’s misstep at Step 2 of the Rule
of Reason inquiry inevitably led to further error at
Step 3, misallocating the burden of proof and converting the less- into a least-restrictive alternative standard.
1. The Ninth Circuit effectively placed the
burden of proof on defendants at Step 3.
If defendants must show the absence of a less restrictive alternative at Step 2, failure to make that
showing for any element of the restraint at issue will
doom the defendants’ case when the burden ostensibly
shifts back to the plaintiffs at Step 3. At that point,
the plaintiffs will need only to observe that the court
has already found that some element of the restraint
can be loosened without reducing consumer demand.
In those circumstances, making that change will, almost as a matter of course, be deemed an equally effective “less restrictive alternative” that supports a
ruling for plaintiffs.
That is exactly what happened here. After offering
their own alternative “conception” of college sports at
Step 2, the courts below at Step 3 analyzed various
ways in which payments to student athletes that currently are barred by the NCAA rules could be permitted under the courts’ alternative definition. Pet. App.
43a. Unsurprisingly, the Ninth Circuit found that, “as
already detailed” (id. at 44a), NCAA requirements
barring forms of compensation that the district court
had determined not to be procompetitive at Step 2 also

39
were correctly deemed not necessary to achieve procompetitive purposes at Step 3. Because the defendants have the burden of proof at Step 2, this sleightof-hand effectively also placed the burden on defendants at Step 3.
And in fact, the Ninth Circuit made that burden
express. It condemned defendants’ argument at Step
3 because they presented “no evidence that demand
would suffer” if the NCAA’s rules were overhauled to
conform with the court’s understanding of college
sports. Pet. App. 45a. But proving that counterfactual
will almost always be just as impossible for defendants at Step 3 as it is at Step 2. See generally C. Scott
Hemphill, Less Restrictive Alternatives in Antitrust
Law, 116 Colum. L. Rev. 927, 979-980 (2016). Instead,
as we show below, the Ninth Circuit should have required plaintiffs to show at Step 3 that the NCAA’s
product definition falls outside a zone of reasonableness.
2. The Rule of Reason does not require use
of the least restrictive alternative.
The flaw in the lower courts’’ application of Step 3
also comes clear from a related consequence of that
approach. If antitrust defendants must prove that
each element of their restrictive rules is as procompetitive as can be, all that will be left, once those elements that fail to make the grade are rejected, will be
those regarded by the court as strictly necessary—
that is, the least restrictive elements needed to serve
the defendants’ procompetitive purpose.
It is well-established, however, that the antitrust
laws do not require defendants to structure their operations in the least restrictive manner possible—and

40
for good reason. Especially in hindsight, “one can frequently conceive of a less restrictive approach. Yet to
require the very least restrictive choice might interfere with the legitimate objectives at issue without, at
the margin, adding that much to competition.” Areeda
& Hovenkamp, Antitrust Law ¶ 1505b. Such an approach often would end up affirmatively harming consumers by interfering with the ability of joint venturers to define, control, and market desired products.
Thus, in United States v. Arnold, Schwinn & Co.,
388 U.S. 365, 380 (1967), the Court held that a restraint must be only “reasonably necessary” to meet a
competitive problem to satisfy the Rule of Reason.
Similarly, in Continental T.V., Inc. v. GTE Sylvania,
Inc., 433 U.S. 36, 59 n.29 (1977), the Court noted that,
while a given restriction “was neither the least nor the
most restrictive provision that [the defendant] could
have used,” the Court was “unable to perceive significant social gain from channeling transactions into one
form or another.” As then-Justice Rehnquist later observed, the antitrust laws “impose a standard of reasonableness, not a standard of absolute necessity.”
Nat’l Football League v. N. Am. Soccer League, 459
U.S. 1074, 1079 (1982) (dissenting from denial of certiorari).
These views have been repeatedly affirmed by the
lower courts. As the Third Circuit held in one of the
leading decisions on the point, “[i]n a rule of reason
case, the test is not whether the defendant deployed
the least restrictive alternative” but “whether the restriction actually implemented is ‘fairly necessary’” to
achieve the procompetitive objective. American Motor
Inns, Inc. v. Holiday Inns, Inc., 521 F.2d 1230, 1248
(3d Cir. 1975).

41
In a seminal opinion on these issues, Judge Bork,
writing for the D.C. Circuit, likewise explained that
when a defendant imposes restraints that are “reasonably necessary to the business it is authorized to conduct,” courts are not to “calibrate degrees of reasonable necessity.” Rothery Storage & Van Co. v. Atlas Van
Lines, Inc., 792 F.2d 210, 227 (D.C. Cir. 1986). “Once
it is clear that restraints can only be intended to enhance efficiency rather than to restrict output, the degree of restraint is a matter of business rather than
legal judgment.” Id. at 229 n.11. Or, as the First Circuit put it, a business is “not required to adopt the
least restrictive means” of furthering a procompetitive
goal, but “merely means reasonably suited to that purpose.” Bruce Drug, Inc. v. Hollister, Inc., 688 F.2d 853,
860 (1st Cir. 1984). See also McCormack, 845 F.2d at
1345 (NCAA player-eligibility rules lawful if they
“reasonably further [the NCAA’s] goal” of creating “a
product distinct from professional [sports]”).
3. Joint ventures are entitled to draw reasonable lines in defining their products.
The destructive effect of a least-restrictive-alternative approach is especially apparent as applied to
joint ventures like sports leagues, where the lines defining the product often could reasonably have been
drawn at more than one place. Presumably for that
reason, the Court recognized in Board of Regents that
the NCAA must have “ample latitude” in “the maintenance of a revered tradition of amateurism in college
sports.” 468 U.S. at 120; see also Race Tires America,
614 F.3d at 80 (sports organizations need “a certain
degree of deference and freedom to act”). But a leastrestrictive-alternative test does not give the NCAA
ample latitude; it gives the NCAA no latitude at all.

42
As one sports-law scholar has observed, “trying to
apply the rule of reason to [individual] restraints is a
fool’s errand—no restraint in isolation is necessary
even though some type of restraint is, so any restraint
is always at risk of being found illegal.” Gary R. Roberts, in Jeremy Davis, A Roundtable Discussion for the
Digital Age: Brady v. NFL, Ent. & Sports Law 1, 6,
(Summer 2011). “Because any single sports-league restraint may have only a modest impact” on a particular procompetitive aim, “courts will frequently be inclined to strike down the challenged practice on the
grounds that its particular terms are not essential.”
Nathaniel Grow, Regulating Professional Sports
Leagues, 72 Wash. & Lee L. Rev. 573, 592 (2015). Accordingly, the Ninth Circuit’s approach “risks exposing leagues to a ‘death by a thousand cuts’ as courts
strike down various rules on a piecemeal basis without fully appreciating how they fit into the larger
framework.” Id. at 591-592.
And the undeniable fact is, for jointly produced
products that are defined by the governing rules, lines
must be drawn somewhere—and even if one can imagine moving one line in isolation without undermining consumer demand for the product, that does not
mean that placement of the initial line was unreasonable. For instance, the Ninth Circuit affirmed the district court’s injunction against NCAA rules prohibiting payments to players for post-eligibility internships. Pet. App. 26a; see id. at 158a. Exactly where
the dividing line lies between amateurism and professional compensation may be a matter that has no mechanical or definitive resolution. But it surely is reasonable for the NCAA to limit paid internships to
avoid the danger that (for example) boosters will offer
massive sums to star recruits, a practice that would

43
significantly erode the distinction between amateur
and professional sports. Whether that is so, and where
the line should be drawn (no paid internships? limits
on who may pay, or the amounts that may be paid?) is
a matter for the joint venture, not for a court.
When establishing joint rules to govern the nature
of a product, there will always be such judgment calls
that can be questioned in hindsight. And that is particularly so for organizations like the NCAA, which
serve multiple stakeholders and have more than one
goal that may bear on where to draw the required line.
See Board of Regents, 468 U.S. at 122 (White, J., dissenting) (NCAA’s goal is “‘to maintain intercollegiate
athletics as an integral part of the educational program and the athlete as an integral part of the student
body’”) (citation omitted).
4. Defendants prevail in this case under a
proper application of the Rule of Reason.
When the Rule of Reason is correctly applied in
this case, plaintiffs cannot succeed on their challenge
to the NCAA’s amateurism rules. Like other joint ventures, the NCAA is entitled to draw reasonable lines
in defining its product. Plaintiffs did not show, and
could not have shown, that the NCAA drew those lines
unreasonably here. As explained above, for example,
the NCAA’s limit on paid internships was a reasonable choice. Indeed, as also explained above, the alternative rules adopted by the lower courts—which,
among other things, include rules allowing cash
awards of almost $6000 merely for being eligible to
play—would fundamentally change the nature of college sports and create a regime of transparent pay-forplay. See supra, at 10-11. The Rule of Reason does not

44
require the NCAA to adopt manifestly unreasonable
rules that would so squarely contradict the organization’s long tradition of amateurism.
Thus, the district court’s failure to dismiss plaintiffs’ claim on application of a full Rule of Reason inquiry was wrong. If the Court reaches that issue, here
again, it should reverse and order dismissal.
III. The Ninth Circuit’s approach undermines the
policies of the antitrust laws.
As the preceding discussion of both the quick look
and the Rule of Reason inquiries suggests, the understanding that the antitrust laws do not empower
courts to require defendants to upend otherwise reasonable restraints on commerce so as to make them
somewhat less restrictive—even if some aspect of the
restraints, considered in isolation, was not proved to
be procompetitive—serves key Sherman Act purposes.
First, that understanding prevents judges from
acting as “central planners”—a role that courts are
“ill-suited” to play. Verizon Commc’ns Inc. v. Law Offices of Curtis V. Trinko, 540 U.S. 398, 408 (2004).
Judges “often lack the expert understanding of industrial market structures and behavior to determine
with any confidence a practice’s effect on competition.”
Arizona v. Maricopa Cty. Med. Soc’y, 457 U.S. 332, 343
(1982). If courts do not have the institutional capability to decide “the proper price, quantity, and other
terms of dealing” (Trinko, 540 U.S. at 408), they are
all the more poorly equipped to determine the proper
bundle of rules necessary to define a concept like “amateurism.” See Hovenkamp, supra, 12 N.Y.U. J. L. &
Bus. at 377 (criticizing O’Bannon, “‘[m]etering’ small
deviations [in amateurism] is not an appropriate antitrust function”). After all, “[i]f courts have trouble

45
identifying and balancing the effects of actual restraints that have been implemented, it is unrealistic
to expect a court to be able to determine the relative
pro- and anticompetitive effects of hypothetical alternatives.” Gabriel A. Feldman, The Misuse of the Less
Restrictive Alternative Inquiry in Rule of Reason Analysis, 58 Am. U. L. Rev. 561, 604 (2009).
This problem is compounded by the continued
oversight required by the injunction in this case. Under the decisions below, the district court’s supervision of the rules it has imposed on college sports will
be ongoing and never-ending. Every NCAA rule
change affecting player eligibility will produce a court
fight; the court’s approval must be sought if the NCAA
seeks to modify the court’s definition of “related to education”; and either side may seek an order modifying
the injunction.
This prospect is not theoretical. The defendants
already have been forced to seek clarification of the
annual amount that the court believes schools must
be permitted to pay all student-athletes in the plaintiff classes in graduation or “academic achievement”
cash awards. But “the antitrust laws do not deputize
district judges as one-man regulatory agencies.” Chicago Prof’l Sports Ltd. P’ship, 95 F.3d at 597. As this
Court has explained, therefore, “continuing supervision of a highly detailed decree” is not an appropriate
function for an antitrust court. Trinko, 540 U.S. at
415.5
In rejoinder to Trinko, the Ninth Circuit opined that “the district court did not fix the value of [the] academic awards” allowed
under the injunction because the task of adjusting the “aggregate
value of athletic participation awards[] remains in the NCAA’s
court.” Pet. App. 48a. But it was the court, not the NCAA, that

5

46
Second, the Ninth Circuit’s approach often will
make redesign of a joint venture’s product a practical
impossibility. Any change to rules (or even public consideration of change) will lead to claims for damages
for the period prior to the change, on the theory that
the change shows that those rules had not been necessary to preserve consumer demand.
This, too, is not a hypothetical concern. As explained above, plaintiffs have repeatedly pointed to
NCAA rule modifications as “proof” that the rules are,
and were, anticompetitive and unnecessary to preserve consumer demand for the product. For example,
the court below found it probative that the NCAA
lifted some limits on COA payments after O’Bannon
“without adversely affecting consumer demand.” Pet.
App. 38a.6 And in now-pending litigation, plaintiffs in
part premise their challenge to NCAA limits on payments for use of student-athlete NILs on the NCAA’s
consideration of possible changes to that rule. See
Class Action Complaint ¶¶ 211-216, House v. NCAA,
No. 20-cv-3919 (N.D. Cal. June 15, 2020), ECF No. 1.
determined that the rules must be changed to allow payment of
cash academic awards to every student athlete equal in amount
to the total value of athletic trophies and awards that a hypothetical superstar player might be able to win.
By the time the Ninth Circuit ruled in O’Bannon, the NCAA
itself had set aside the bar on full COA athletic scholarships,
agreeing that “giving student-athletes scholarships up to their
full costs of attendance would not violate the NCAA’s principles
of amateurism because all the money given to students would be
going to cover their ‘legitimate costs’ to attend school.” 802 F.3d
at 1075. The Ninth Circuit cited that change in holding the COA
limit to have violated the Sherman Act. See ibid. So the NCAA’s
rules change contributed to the finding of liability in O’Bannon,
which in turn contributed to the further finding of liability in this
case.
6

47
Thus, the Ninth Circuit’s approach, paradoxically,
tends to freeze existing student-athlete payment limits in place, as the fear of generating liability discourages NCAA innovation that could benefit student-athletes while preserving the college sport “product.”
Third, a rule of law that permits courts to re-define a joint venture’s product, or tinker with individual restraints by removing those viewed as insufficiently procompetitive, will encourage endless litigation. Plaintiffs always will be able to claim that a moderate change to one or more rules will be less
restrictive while not undermining consumer interest
in the product.
This danger is hardly limited to the NCAA, or to
sports leagues. As leading antitrust scholars explained prior to the Ninth Circuit’s decision in O’Bannon, if such an approach to the Rule of Reason becomes the norm, “restraints reasonably necessary to
achieving valid business objectives could be subject to
antitrust condemnation—including exposure to treble
damages—based solely on the creativity of antitrust
lawyers imagining marginally less restrictive approaches.” Br. for Antitrust Scholars in Support of Appellant at 15, O’Bannon v. NCAA, 802 F.3d 1049 (9th
Cir. 2015) (Nos. 14-16601, 14-17068), ECF No. 17. As
these scholars continued, pointing to examples of actual litigation:
With only a modest extrapolation from the
reasoning of the [O’Bannon district court], a
court could have decided that obstetricians really only need 30 months of residency training
to perform C-sections rather than 36, and
therefore condemned the credentialing requirements [that required the longer resi-

48
dency period.] A court likewise could have decided that * * * five-year transportation assignments * * * should instead have been four
years. * * * The possibilities are limited only
by the imagination of the antitrust bar and
the willingness of the bench to indulge it.
Ibid.7
Under the Ninth Circuit’s approach, plaintiffs always could advance by stages towards the complete
elimination of useful and procompetitive restrictions.
The joint design and marketing of products would be
subject to perpetual judicial second-guessing, resulting in uncertainty and unwarranted limits on procompetitive collaborations. See Frank H. Easterbrook, Ignorance and Antitrust, in Antitrust, Innovation, And
Competitiveness 119 (Thomas M. Jorde & David J.
Teece eds., 1992). And even if judges were sometimes
just as capable of re-designing products as the products’ creators, “the costs of wrongly condemning a beneficial practice may exceed the costs of wrongly tolerating a harmful one.” Chicago Prof’l Sports Ltd. P’ship
v. Nat’l Basketball Ass’n, 961 F.2d 667, 676 (7th Cir.
1992). “Markets slowly but surely undermine practices that injure consumers,” but “[c]ompetition does
not undermine judicial decisions.” Ibid.

See also, e.g., Gary R. Roberts, The NCAA, Antitrust, and Consumer Welfare, 70 Tul. L. Rev. 2631, 2670 (1996) (explaining that
the least restrictive alternative doctrine risks “plac[ing] an impossible burden on every type of joint organization whose rules
are subject to the rule of reason” by “allow[ing] plaintiffs to play
this slippery-slope game of cherry-picking individual rules and
hypothesizing less restrictive variations”).
7

49
Accordingly, the decision below raises precisely
the concerns the Court has identified in urging caution against overly expansive antitrust liability. See
page19, supra. The antitrust laws should not make
defendants into “guarantors that the imaginations of
lawyers”—or judges—“could not conjure up some
method of achieving the business purpose in question
that would result in somewhat lesser restrictions of
trade.” American Motor Inns, 521 F.2d at 1249. Once
it is determined that the defendants’ joint action is
“reasonably necessary” to create a desirable product
(Rothery Storage & Van Co., 792 F.2d at 227)—surely
the case of the NCAA eligibility rules at issue here, as
recognized by the Court in Board of Regents and confirmed by generations of practice and repeated judicial decisions—the inquiry should be at an end.
Of course, this does not mean that the NCAA’s
rules are wholly immune from scrutiny. There currently is an intense policy debate ongoing about possible liberalization of the NCAA’s NIL rules. Congress
is actively considering whether and, if so, how to reform elements of college athletics8; some States have
enacted laws in this area and other States are considering legislation.9 But these policy questions are not
the subject of the antitrust laws, which focus narrowly
on competition and take no account of broader questions of fairness, or of educational and athletic policy.
See National Soc’y of Prof’l Eng’rs v. United States,
See U.S. Sen. Comm. on Health, Educ., Labor & Pensions, Compensating College Athletes: Examining the Potential Impact on
Athletes and Institutions (Sept. 15, 2020), https://tinyurl.com/yyqcfhub.

8

See, e.g., Cal. S.B. 206 (Sept. 30, 2019) and Cal. Educ. Code
§ 67456; Fla. S.B. 646 (June 12, 2020) and Fla. Stat. § 1006.74.
9

50
435 U.S. 679, 692 (1978). The future structure of college sports is appropriately resolved by colleges and
policymakers, not antitrust courts.
CONCLUSION
The judgment of the court of appeals should be reversed.
Respectfully submitted.
BRITT M. MILLER
ANDREW S. ROSENMAN
JED W. GLICKSTEIN
Mayer Brown LLP
71 South Wacker Dr.
Chicago, IL 60606
(312) 782-0600

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
RICHARD J. FAVRETTO
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for The Big Ten Conference, Inc.

[Additional counsel on following pages]
FEBRUARY 2021

51
ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Los
Angeles, CA 90067
Washington, D.C. 20001
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

52
R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

